CERTIFICATE OF SERVICE
No. ____________________

Paul Winfield,
Petitioner
v.
United States Probation & Pretrial Services and Chris Counts,
Respondents.

I, Graham P. Carner, a Member of the Bar of the Supreme Court, do hereby
certify that pursuant to Rule 29 of the of the Supreme Court Rules I have today
served via electronic means (upon agreement from opposing counsel) the following
Petition for Writ of Certiorari:
Angela Givens Williams
Assistant United States Attorney
Southern District of Mississippi
Angela.Williams3@usdoj.gov
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 20, 2020.

/s/ Graham P. Carner
Graham P. Carner
Member of the Supreme Court Bar

